                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             Office of Inspector General
                                                             Washington, D.C. 20230




May 29, 2013



MEMORANDUM FOR:               Eric L Hirschhorn
                              Under Secretary for Industry and Security

FROM:                         Ron   Prevost~~
                              Assistant Inspector General for Economic and Statistical
                               Program Assessment

SUBJECT:                      Audit of BIS Export Control Reform Preparedness


During a March 5, 20 13, hearing before the House Appropriations Subcommittee on
Commerce, Justice, Science, and Related Agencies, Chairman Frank Wolf raised a question
about the Bureau of Industry and Security's (BIS') ability to handle the expected increased
workload for the licensing and enforcement of former munitions items. As a result, and in
conjunction with our Top Management Challenges facing the Department of Commerce, we
plan to audit BIS' plans to implement changes to its licensing and enforcement operations
resulting from the Export Control Reform Initiative.

Our objectives are to (I) review the adequacy of BIS program plans and budget requests to
address the increased workloads for licensing, outreach, and enforcement activities in FYs
20 14-20 16 and (2) evaluate existing BIS licensing, outreach, and enforcement activities and
identify any areas for increased efficiencies.

We will contact your audit liaison to schedule an entrance conference in June 20 13. In the
interim, we will send a document list and request that you provide us the information
requested within 2 weeks. If you have any questions about this audit, please contact Carol Rice,
Division Director for Statistical Programs, at (202) 482-6020 or Eleazar Velazquez, Supervisory
Program Analyst and audit manager, at (202) 482-0744. We appreciate the cooperation of your
staff during this audit.



cc: 	   Daniel 0. Hill, Deputy Under Secretary for Industry and Security
        Kevin J. Wolf, Assistant Secretary for Export Administration
        David W. Mills, Assistant Secretary for Export Enforcement
        Gay Shrum, Chief Financial Officer and Director of Administration
        john T. Masterson, Jr., Chief Counsel for Industry and Security
        Mark Crace, Audit liaison
